<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         ORGANIZATIONAL MEETING

=======================================================================

                         ORGANIZATIONAL MEETING

                               before the

                     JOINT COMMITTEE ON THE LIBRARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 21, 2005

                               __________

      Printed for the use of the Committee on House Administration


                    U.S. GOVERNMENT PRINTING OFFICE
22-378                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     JOINT COMMITTEE ON THE LIBRARY

                           BOB NEY, Chairman
Senator TED STEVENS, Alaska          Senator CHRIS DODD, Connecticut
  Vice Chairman                      Senator CHARLES SCHUMER, New York
Senator TRENT LOTT, Mississippi      Rep. JUANITA MILLENDER-McDONALD, 
Senator THAD COCHRAN, Mississippi        California
Rep. VERNON J. EHLERS, Michigan      Rep. ROBERT A. BRADY, Pennsylvania
Rep. CANDICE MILLER, Michigan        Rep. ZOE LOFGREN, California

                           Professional Staff

                    Bryan T. Dorsey, Staff Director
               Jennifer Mies Lowe, Deputy Staff Director

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                        THURSDAY, APRIL 21, 2005

                          House of Representatives,
                            Joint Committee on the Library,
                                                    Washington, DC.
    The joint committee met, pursuant to call, at 4:16 p.m., in 
room H-144, The Capitol, Hon. Robert W. Ney (chairman of the 
joint committee) presiding.
    Present: Representatives Ney, Ehlers, Millender-McDonald, 
Lofgren, and Miller and Senators Stevens and Lott.
    Staff: Fred Hay, Legal Counsel; Geraldine M. Otremba, 
Director of Congressional Relations, Office of the Librarian; 
Bryan T. Dorsey, Staff Director; Jennifer Mies Lowe, Deputy 
Staff Director; Matt Pinkus, Professional Staff.
    Representative Ney. I will bring the Committee to order 
today, the Joint Committee on the Library of Congress, for the 
first meeting of the 109th. I welcome all of our great members 
who are here today.
    As our first order of business we have to elect a committee 
chair and vice chair. In the 109th, the House gets to chair. Is 
there a nomination for the Chair?
    Senator Stevens. Mr. Chairman, I nominate the 
Representative from Ohio, Bob Ney, the chairman during this 
Congress.
    Representative Ney. As long as the people vote back home 
they can call me Ney or nigh. I have been called worse.
    Do I hear a second?
    Senator Lott. Second.
    Representative Ney. Any other nominations? Hearing none, 
all those in favor signify by saying aye. Opposed no. And the 
ayes have it.
    I thank the distinguished Senator and other Senator for the 
nomination and the second.
    Now it is up to the vice chair. I would like to nominate 
the Senator from Alaska, Senator Ted Stevens. Is there a 
second?
    Senator Lott. Second.
    Representative Ney. Any other nominations? Hearing none, 
all those in favor signify by saying aye. Opposed no. The ayes 
have it.
    The record will reflect that the Committee has elected 
myself, the Representative from Ohio, Bob Ney, as chairman, and 
the Senator from Alaska, Ted Stevens, as the vice chairman. I 
thank again my colleagues from both sides of the aisle in the 
House and also we are joined by the ranking member, 
Congresswoman Millender-McDonald and Congresswoman Lofgren from 
the State of California.
    Senator Stevens. Chairman, I would move for the adoption of 
the rules.
    Representative Ney. Yes, and I will second that.
    All those in favor of the adoption of the rules--there are 
a couple of technical changes I understand, strictly technical. 
It has been seconded.
    All those in favor signify by saying aye. Opposed no. The 
ayes have it.
    We will begin with the testimony of the Librarian of 
Congress, Dr. Billington.

 STATEMENT OF JAMES H. BILLINGTON, PH.D., LIBRARIAN OF CONGRESS

    Mr. Billington. I am happy to be here to testify before the 
Joint Committee of the Congress on the Library, the oldest 
joint committee of the Congress, and I also thank the Congress 
for being the greatest single patron of the Library in the 
history of the world.
    This library has the world's largest collection of human 
knowledge and is the principal source of research support for 
the Congress of the United States. We also collect and preserve 
materials in 486 languages from abroad; and, largely through 
copyright deposit, the Library preserves the immense ongoing 
record of America's intellectual and cultural creativity.
    The ways in which we perform all of our services are 
changing rapidly in response to the digital revolution which 
has generated new kinds of resources. In addition to books, 
journals, manuscripts, maps, films, and recordings, we must now 
collect digital audiovisual resources, digital documents, 
electronic databases and even Web sites.
    In 2004, our unique universal collection of 130 million 
items added 2,600,000 new books and other artifacts; and our 
educational Web site attracted more than 3.3 billion electronic 
hits. We now have more than 9 million items of American history 
online and information about the Congress and much else. We are 
moving the materials that we provide in our National Service 
for the Blind and Physically Handicapped into digital formats. 
We are also leading a national program, thanks to Senator 
Stevens' leadership, to archive materials that are unique, 
important and dependable from the vast flood of material in 
digital format on the Internet; and we have made awards 
totaling $14 million to eight leading consortia partners 
encompassing 36 institutions who have begun to join us in 
archiving and preserving essential digital information so that 
we can provide it to Congress and the Nation comprehensively in 
the future.
    The Library is now in the advanced stages of converting 
almost all of our processes from manual to electronic formats. 
At no other time in history has technology so directly affected 
how we perform our work. Superimposing a digital on an analog 
library has vastly increased the need for the Library's staff 
expertise to identify, authenticate, catalog, interpret and 
provide access to information largely on line as well as in 
print format.
    Our librarians, nearly 30 percent of whom are eligible to 
retire, have to become knowledgeable navigators guiding 
readers, scholars and your constituents, as well as the 
Congress through raw, unprocessed data toward reliable 
information and insightful analysis. Replacing staff positions 
often requires us to increase the expertise and grade levels of 
the staff who replace them. I know that Mr. Mulhollan will 
touch upon this in his statement about the Congressional 
Research Service, but it is actually an issue for all of the 
Library.
    In this time of momentous change, valuable information, not 
easily attainable otherwise, flows to the Library, to the 
Congressional Research Service, and to Members of Congress from 
our six overseas offices in other parts of the world, and I 
provided the committee in your packet with a brief itemization 
of some of the important services provided to the Nation 
through our Islamabad and through our other offices.
    In order to sustain Congress' investment, which has been 
205 years, we are requesting this year $628 million for fiscal 
year 2006. We testified before the Senate Legislative Branch 
Subcommittee earlier this week and have provided you with a 
copy of my hearing statement dealing with all of that. I 
particularly stress the importance of facilities for 
preservation and storage, both of audiovisual materials at the 
Culpeper, Virginia, facility that is being built by the Packard 
Humanities Institute, who are making an unprecedented gift of 
more than $120 million to do so, and also of important 
facilities to be constructed by the Architect of the Capitol in 
his budget at Fort Meade, Maryland, to house 26 million items 
of our often unique special collections.
    We urgently need to increase our acquisitions budget, which 
has also suffered from the declining buying power of the dollar 
abroad and from the soaring price of periodicals. We also need 
added funds to sustain the essential staff capacity in CRS and 
to sustain our massive conversion of all processes from manual 
to electronic formats, including the essential completion of a 
7-year reengineering program in the Copyright Office.
    The gloriously restored Jefferson building is increasingly 
a major tourist destination, which is now attracting more than 
1 million visitors annually. The advent of the Capitol Visitors 
Center with the tunnel connecting directly to the Jefferson 
Building will bring a vastly increased number of new visitors 
to the Library and we hope to have them discover one of the 
least-known historic accomplishments of the Congress of the 
United States: The preservation in its library of the mint 
record of American creativity contained in our vast copyright 
deposit and multimedia collection of the Library. It is 
absolutely unique and extraordinary.
    We plan to transform a part of the Thomas Jefferson 
Building into a state-of-the-art Creative America Center--it is 
roughly described in our statement and included in the 
package--with state-of-the-art interactive experiences that 
will draw visitors into the creative process. Visitors will 
have a chance to ask questions in an interactive mode. You can 
see the beginnings of it in the electronic technology in the 
Library's latest exhibit. We have a magnificent collection of 
the early Americas.
    The Library must provide ``the magic at the end of the 
tunnel'', John Kluge said when he was talking to our private 
sector Madison Council. He chairs it and said this as he 
pledged $5 million yesterday to the effort to begin the 
Creative America project. This program will greatly increase 
public awareness and appreciation of what in fact the world's 
most creative modern Nation has brought into being and how the 
Congress of the United States has preserved it all for the 
education, the inspiration, and enjoyment of the American 
people.
    We will, of course, keep the Joint Committee informed of 
these developments in Creative America and of two additional 
efforts in which the private sector's involvement may greatly 
increase the usage and impact of the Library.
    We are in discussion with a major high technology company 
to advance significantly the Library's growing effort to put 
foreign materials from our library on line together with 
matching materials from other national libraries--building on 
projects such as the Meeting of Frontiers project with Russia, 
with already a million items of Russian materials on line, the 
National Library of Spain, Egypt, and several others.
    Representative Millender-McDonald. Dr. Billington, so that 
we can hear from the others in the time that we have, I 
certainly want to get your views that you present, which are so 
critical. In the 200-plus years, the Library has been one of 
the icons of our Nation and I want to get your views in 
reference to some of those questions that we might obviously 
have raised earlier, but not this floor action that is going 
back and forth.
    I just want to tell you that I am going to a meeting with 
you next week so that we can discuss those issues that you have 
in your statement as well as some of those other issues that 
you might like to speak to me about.
    Mr. Billington. Let me mention one other thing and then I 
am finished. And that is the former St. Cecilia's facility 
which is a property that we acquired some years ago. It is on 
East Capitol Street. This building was acquired by the 
Architect of the Capitol for the Library's use as a child care 
facility and also housing for scholars in 1991. Except for the 
daycare at what we call the Little Scholars Center, the 
building has remained unrenovated and we are in discussion with 
a major foundation to see if we can't also refit it. This would 
provide resident scholars from the Kluge Center, with an 
inexpensive place to stay nearby. We are in discussions about 
this with the Architect of the Capitol, who has been very 
helpful.
    Representative Ney. Thank you. And I know that we are 
almost out of time. I would like to hear from the Architect of 
the Capitol, Mr. Alan Hantman, about the National Garden and 
the final statue.

     STATEMENT OF ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL

    Mr. Hantman. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to give you a report 
on the progress of the National Garden and other AOC projects.
    I am pleased to report that the National Garden project is 
48 percent complete, although most of the work is not readily 
visible because a good deal of it has been infrastructure work 
underground and installation of elements that will support the 
garden above.
    Since we awarded the construction contract in March 2004 
for the base bid and Option One, the National Fund for the U.S. 
Botanic Garden has raised the funds to proceed with Option Two, 
the Regional Garden. Therefore, in addition to the Rose Garden, 
the Butterfly Garden, the Lawn Terrace, the Hornbeam Court and 
the landscaped garden path, we also will be constructing the 
Regional Garden.
    This garden will feature the flora and fauna native to the 
Mid-Atlantic area and a three-level earthen amphitheater that 
will function as an outdoor classroom.
    As you know, Mr. Chairman, the National Garden project has 
been a joint venture among the Joint Committee on the Library, 
the AOC, and the National Fund. So I would like to thank the 
joint committee for its support which has made this wonderful 
oasis a reality.
    I also want to thank the Fund for its commitment to 
completing our vision for a respectful, dignified National 
Garden. They are continuing to raise funds and have secured 
commitments towards the construction of Option Three, which is 
the First Ladies Water Garden. It is my hope that within a few 
months I will be able to report that their efforts have been 
successful and that they will be starting work on that First 
Ladies Water Garden.
    Completion of the base bid with the first two options is 
planned for this November and the Garden is scheduled to be 
open to the public in the summer of 2006. If we receive the 
funding for Option Three by July 1st, we will begin 
construction on the Water Garden as well. That will add 4 
months to the construction schedule. We expect that this work 
can be done in conjunction with other construction work and we 
anticipate the opening of the National Garden within a few 
weeks of the projected summer 2006 opening.
    Another topic of note, Mr. Chairman, is that this year the 
100th statue will be added to the National Statuary Hall 
Collection. In September, the State of New Mexico is expected 
to donate its second statue, thus completing the Collection 
establish by Congress in July 1864. New Mexico has chosen to 
honor Pope, a Pueblo medicine man. The 7,800-pound, marble 
statue measures 7 feet tall and will sit on a 3-foot high 
pedestal. We look forward to working with the joint committee, 
as well as the New Mexico congressional delegation, on the 
unveiling ceremony to accept the 100th statue to the 
collection.
    Over the past several months, we have been conserving the 
frames surrounding the paintings in the Rotunda, and this work 
includes reconstruction of the missing pieces, cleaning, 
extensive regilding and careful toning to match the new gilding 
of the surfaces. These carved pine frames were originally 
installed in 1824 and gilded between 1826 and 1828.
    In addition, we completed the restoration of this wonderful 
room, which was painted by Brumidi, it was one of his first 
challenges here at the United States Capitol. We take great 
pride in being steward of these national treasures that we all 
share.
    I thank you and look forward to any questions that you may 
have.
    Representative Millender-McDonald. Mr. Chairman.
    Representative Ehlers [presiding]. I am in charge? I like 
that. Are there any questions or comments?
    Representative Millender-McDonald. May I just comment, Mr. 
Chairman. I appreciate your report. I look forward to visiting 
with you next week. You and I talked about the parameters and 
some of the other things that we want to look at, and as well 
as the statue issue and the letter that I got. So we have to 
talk about that, because I can agree with a lot of what you are 
saying in the letter.
    So I appreciate your coming to us with this information, 
and further, I look forward to your meeting with me next week 
so that we can talk about some of the other issues.
    Mr. Hantman. Absolutely. Hopefully, Congresswoman, we will 
have a chance to take a tour of the Visitor Center as well, and 
that is certainly an invitation to everyone who has not yet had 
that opportunity. We are putting the decorative fit-out stone 
up now and you can get a sense of the spaces and how the 
visitor will perceive the Visitor Center as well.
    Representative Millender-McDonald. There will be a garden?
    Mr. Hantman. The First Ladies Water Garden is planned for 
the National Garden. Hopefully we are going to get the rest of 
the funds and can announce to this committee that it will soon 
be under construction.
    Representative Millender-McDonald. Thank you, Mr. Chairman.
    Representative Ehlers. Representative Lofgren.
    Representative Lofgren. Apologies for missing the end of 
Mr. Mulhollan's verbal report. But reading through it, it 
appears that there is some stress in the CRS and it is 
something that we rely on. Looking at your CRS budget request, 
does this really in your mind resolve the challenges that you 
are facing?
    Mr. Mulhollan. If we get the funds requested. Actually I 
haven't had a chance to speak yet on that, but we are asking 
for a one-time base adjustment to make us whole in CRS and it 
has two components. Half of our request is for mandatories: the 
annual cost of living increases related to staff salaries and 
the inflationary adjustments for the purchase of goods and 
services. 88 percent of our budget is salaries. We are faced 
with a historic funding gap due to three factors for CRS. 
Congress has been helpful to us in our succession planning. In 
the last two fiscal years we have hired over 130 staff--and 
lost a comparable number to retirements and other separations. 
Most of the people retiring are under the old retirement 
system, the Civil Service Retirement System, with employer-paid 
benefits costing us per employee about 13.5 percent. Those new 
staff coming on are in the new retirement system, FERS, where 
the employer-paid benefits are 27 percent--double the rate for 
CSRS. So that is one reason for it.
    Another is that the year after I started as Director, 1995, 
the average new hire was a GS-7, Step 9. Today the average hire 
is GS-13, Step 9. Why is that? The problems Congress faces are 
more complex. We are dealing increasingly with environmental, 
economic and international aspects. We are bringing in new 
competencies, biochemists, gerontologists, geneticists, 
actuaries, and they are part of the reasons why we have more 
expert staff to help you with legislation but the cost is more 
per employee.
    And the last reason is the fact that in the past 10 years, 
with one exception, there has been a gap between the rate we 
anticipate and the rate change approved for Federal employees' 
annual cost of living adjustment. In fiscal year 2004, we 
requested 3.7 percent. But what the President signed into law 
was 4.42 percent. This resulted in a $400,000 shortfall--or 4 
FTEs--for that year and that has been cumulative for several 
years. We have asked for this $3.61 million for a one-time 
rampup to keep us at 729 FTEs.
    The last component of our request is what Dr. Billington 
alluded to in his statement. The Library is facing the same 
challenge. This is a one-time reassertion of our buying power 
for research materials. There are new challenges, new 
literature, on issues such as global terrorism and homeland 
security. We did a thorough study of our actual costs. In the 
past 10 years, our average increase has been 9 percent, but we 
have been asking for a traditional inflation rate of 1.52 to 2 
percent. Our budget projection methodology now includes the 
actual inflation rate, but we need this one-time funding 
adjustment to recover from years of budget base erosion. And so 
there are things like the proprietary drug pricing databases 
that we need, and others such as PIERS, which is a port 
security database. Those are the kinds of materials that we 
need and the Library is facing its greatest challenge there.
    Representative Ehlers. Any further questions?
    Representative Lofgren. No, he answered it.
    Representative Ehlers. Thank you. You have not had an 
opportunity to give your report. The chairman is back. I will 
have to leave in about 8 minutes.
    Mr. Mulhollan. Well, I will be under 5 minutes actually.

   STATEMENT OF DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL 
                        RESEARCH SERVICE

    Mr. Mulhollan. Mr. Chairman, members of the committee, I 
appreciate the opportunity to appear at the committee's 
business meeting today and want to express my gratitude for 
your continuing support for the Congressional Research Service.
    Five years ago Congress directed me to bring to your 
attention issues relating to CRS' ability to meet its mission. 
It is in the context of that obligation I must inform you that 
CRS is at a pivotal point. Today, I am asking for your support 
on the fiscal year 2006 budget request. This funding is 
essential to our ability to continue to meet our statutory 
mission and uphold our tradition of serving every Member and 
committee on the issues of concern to them.
    I am mindful of the budgetary pressures facing the 
Congress. Our 2006 budget request carefully considers those 
pressures and does not reflect a growing workload but rather 
the need to catch up from gaps in funding. I have already 
mentioned and I will not repeat in detail our reasons for our 
request, but I think we have a good case to be made.
    What I do want to point out, however, is that in 2002, the 
joint committee asked that we accelerate our adoption of 
technologies to assist members, wherever they may be, whenever 
they need assistance. CRS has achieved major advances in this 
area. We are using our Web site to provide you with 
comprehensive research and analysis, structured around over 180 
significant policy issue areas facing the Congress this 
session, and CRS experts are committed to reviewing and 
modifying their analysis wherever and whenever significant 
congressional or world events occur.
    We are using encrypted e-mail to communicate with you. This 
fiscal year so far there have been over 77,000 e-mail messages 
between CRS and the Congress, a 13 percent increase from the 
same period last year. While e-mail speeds direct 
communications between and among individuals, it also raises 
expectations and increases demands for immediate responses. We 
are also testing the use of wireless technology, a capacity 
that may be useful for communications during emergency 
situations.
    We are constantly assessing our functions to ensure that 
they are efficient and effective. We are: reorganizing to 
maximize direct service to the Congress, colocating staff to 
facilitate collaboration, consolidating CRS facilities, 
utilizing flexible hiring programs with a focus on enhancing 
our diversity, and outsourcing selective operations.
    In addition, we regularly and carefully review our 
relatively fixed, nonpersonal costs to see if any component of 
those expenditures can be reduced or eliminated, and we have 
initiated audits of every ongoing business activity within CRS.
    We also look forward to working with the Library, and the 
committee on human resources flexibility legislation, which 
will improve our ability to recruit and retain staff.
    In closing, CRS is a shared pool of experts and as such we 
have the ability both to address high priority issues from 
multi-disciplinary perspectives and to provide a wide range of 
high level, confidential, specialized expertise. Individual 
committees and Members could not retain such a valuable 
resource for their own offices, but CRS, as a centralized 
shared pool extends your own office's capacity and has proven 
to be cost-effective in meeting total congressional demands.
    Every member of CRS joins me in my efforts to fulfill our 
mission to uphold our tradition of service, and to remain a 
highly productive, streamlined, and flexible organization that 
works closely with the Congress, to anticipate and address 
congressional needs.
    Thank you.
    Representative Ney. Questions?
    Representative Lofgren. We asked them while you were gone.
    Representative Ney. Did you?
    Representative Miller. I am a new member, and I am happy 
that the chairman asked me to be a member of this committee. I 
am sorry that I missed Dr. Billington's presentation, but I did 
have the opportunity to meet you earlier and, as I mentioned, 
in my former life as the Michigan Secretary of State, an odd 
appendage of my duties was to serve as official Historian of 
our State. In our complex the State museum was with our State 
library, so we did a lot of different partnerships with them 
and I miss that part of the job. So I am excited to be on the 
Committee to work with the Library. It is an unbelievable 
national treasure.
    I received a short briefing about how to use some of those 
resources in my district, and I am very excited about that. And 
Dan, to you, I will just say that, as you know, I had an 
opportunity as a new Member last term to go through the new 
Member orientation. I will never forget how nervous I was and 
wondering how I was ever going to get briefed up on all these 
issues. I went back to my staff after the orientation and said, 
are you aware of CRS and what they can do to help us?
    What a fantastic and professional organization you have. 
And I will also say that I do not think there is a partisan 
gene in any of your staff, and I say that with a high degree of 
respect. They treat both sides very well, no matter what 
question any of us may have.
    Mr. Mulhollan. Thank you. I appreciate that.
    Representative Miller. I am excited to be on the Committee, 
and I will enjoy working with all of you.
    Representative Ehlers. I just wanted to relay a comment 
Congressman Bereuter made to me a month or so ago. He was back 
in town. He was one of the most respected, most thoughtful 
Members of the Congress before he left to head up the Asia 
Foundation, and I asked him how things were going and he said 
fine. And I said what do you miss about the Congress? And he 
said the thing I miss most is CRS. He said I have to give a lot 
of speeches and now I have to do my own research.
    So I thought I would pass that on to you. Your service is 
appreciated also by those who have left.
    Another comment to the Architect about touring the Visitor 
Center, just one comment, I am very interested in doing that, 
finding time that Members can, and I would suggest that the 
most likely time to catch us is on the first day when we return 
and are having votes in the evening, about 4:30 to 5:00 or 
6:00, or 4:00 to 6:00. Other days, we all have committee 
meetings. Normally, we do not have meetings that day.
    Mr. Hantman. We will certainly contact your offices and 
hopefully we can arrange that.
    Representative Lofgren. Just a question. The CRS, I mean--
and that goes to the Appropriations Committee--do we generally 
make a recommendation to the Appropriations Committee? And if 
so, should we recommend what we have proposed in the CRS 
budget?
    Representative Ney. I think after we look at it, it is 
helpful. I believe that CRS will have full support, if members 
look at it. I think it is helpful.
    Representative Lofgren. Should we move to do that or do we 
have a quorum to do that?
    Representative Ney. We need Senator Stevens to do that, or 
Senator Lott. But in general, I think it is helpful that people 
feel confident, which I do. But we could send a letter, as I 
understand it. So what we will do is talk about it further when 
the Senators are here.
    Representative Lofgren. Okay.
    Representative Ney. I just wanted to say that I appreciate, 
the confidentiality of CRS in that you do not have to worry 
that your work is going anywhere. It is critical that we have 
CRS. As I understand from Senator Stevens years ago, there were 
offices trying to do it on their own and there was a thought 
years ago about creating your own positions to do it; it just 
wouldn't work.
    Mr. Mulhollan. We did a study actually in 1994 when the 
change of party control occurred. We looked at what it would 
take to acquire the same competency if every office hired 
experts and also what it would take if you contracted out the 
services to private entities. In both instances, in both 
methodologies, the public support of a centralized service came 
out way ahead as cost-effective, and I think that that would 
even hold more so today.
    Representative Ney. Dr. Billington, I also wanted to 
congratulate you on a huge step when you went to Iran. That was 
a major step and learning experience.
    Mr. Billington. It also expands our capacity to have 
exchanges of important materials.
    Representative Ney. The governments may not speak, but at 
least education can continue.
    Mr. Billington. I learned much from our curators, 
specialized curators, there and all the circumstances.
    Representative Ney. One other thing, George Shevlin was 
there, and I am trying to think of other people in our office 
who were there. We visited with your people in Istanbul, and we 
went to Cairo. They really have done a good job. There are so 
many things in this world that would be absolutely lost without 
CRS. When the Loya Jirga met in Afghanistan, the Taliban had 
enjoyed the original code of law of Afghanistan, and the only 
copy of that code was here in the Library of Congress. That is 
how Afghanistan was reconstituted as a democracy and had this 
ability because I understand it was lost.
    Mr. Billington. We also acquired from our overseas office 
the autobiography of Osama bin Ladin which nobody knew existed, 
among the largest Arabic collection in the world. We have 
expanded--I don't want to go into our budget particularly, but 
I would just stress that acquisitions of this kind and the 
enormous web of exchanges that we have is an enormous backup 
for the Congress and the Nation. For instance, in Operation 
Desert Storm in 1991 it turned out to be very important to have 
the Library's records of German archaeological data from the 
19th century from Mesopotamia. It confirmed that the sands of 
southern Iraq would support heavy armor. This illustrates the 
variety of important uses of our overseas collections. Who 
would have thought that material about Kosovo and Afghanistan, 
Burundi, and Chechnya, would be useful. It was because Congress 
has consistently supported our global effort to obtain these 
collections in all languages and virtually all subjects, except 
medicine and agriculture, which have their own national 
libraries. This material is useful not just for Congress but 
for the government in general and the American people and it 
helps public libraries, of course. We provide massive Web 
services, cataloging and so forth.
    So there are a great number of things in our budget that 
are equally important. In the long run of course the CRS is 
very important and ongoing. Our expanded Iranian collection is 
very important in a closed society. One of the most interesting 
things is the impressive presence of Farsi materials on the 
Internet. It is the third largest language on the blog sites.
    Representative Ney. Also, it is widely used in California.
    Mr. Billington. In Los Angeles, there is a major center of 
Iranian culture and a lot of the questions I was asked was 
about Iranian Americans. This is extremely interesting. It is a 
very talkative world and we have to harvest those kinds of 
materials, too, to have the information that we need.
    Representative Ney. On another issue, it is great that we 
are finishing the statues. I also know that you get beat up 
over that Visitors Center. It is a tough job and you have done 
a good job. And if you haven't been in that center, you really 
should take the tour. As for the signage on the House side, 
people raved about it. It looks good and it is good for 
visitors.
    Any other questions or comments?
    I want to thank Senator Stevens and his staff and all of 
our members who have been so good with your time.
    I ask unanimous consent that members have 7 legislative 
days to submit material in the record and that those statements 
and materials be entered in the appropriate place in the 
record.
    Without objection.
    And I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
in today's meeting.
    Without objection, so ordered.
    And that completes the meeting. Thank you.
    [Whereupon, at 4:54 p.m., the joint committee was 
adjourned.]

</pre></body></html>
